V77M

No.

I
IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court. U.S.
FILED

MAR 1 8 2021
OFFICE OF THE CLERK

IMEH U. AFFIAH
— PETITIONER
(Your Name)
vs.
TEXAS SOUTHMOST COLLEGE; LISSA FRAUSTO; MIKE SHANNON
_____________________________ — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

_________ UNITED STATES COURT OF APPEALS. 5th CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

IMEH U. AFFIAH
(Your Name)

mnm rum creek nwivE, u ?07
(Address)
HOTTSTONj TEXAS 77(ttfi

(City, State, Zip Code)
(337) 962-8224
(Phone Number)

QUESTION(S) PRESENTED
This case involves some questions meriting argument:
Why?
(a) The US Court of Appeals, 5th Circuit and the US District Court Southern Division,
Brownsville relied solely on a two-page summary judgement report by Defendants
without reviewing and addressing all the documents and concerns raised by Plaintiff
prior to summary judgement report by Defendants prior to rendering any opinion.
Courts failed to address the inconsistencies and contradictions in the fabricated or
made up documents and summary judgement of Defendants, (details in the briefs)
(a) The US Court of Appeals, 5th Circuit, knowing Plaintiffs unfortunate filing status
failed to address Plaintiffs pleas for Oral arguments by both sides to emphasize
and clarify the limited information filed in the briefs before rendering any
opinion.
(c) The US District court, Southern Division, Brownsville, knowing Plaintiffs
unfortunate filing status refused to grant Plaintiffs request for time to respond
to the insurmountable fabricated or made-up information two years after the facts
by Defendants in their summary judgement report, (details in the briefs)
(d) The US Court of Appeals, 5th circuit cited veiy damaging information against
Plaintiff that are not indicated in Defendants’ report and the US District court,
Southern Division, Brownsville opinions as the basis for its opinions.
(e) The US Court of Appeals, 5th Circuit did not appear to have seen and reviewed
Plaintiffs briefs prior to rendering its opinions. (The briefs as shown in
Appendices answered most of the questions that Plaintiff was not given
opportunity by the District court to respond. The brief also provided
insurmountable evidence that most of the so-called evidence by Defendants were
made up way after Plaintiff was fired and could not have been used for reasons
for his termination), and
(f) What role did lack of legal representation of Plaintiff played in the opinions
rendered by the Courts thus far.
Answers to these questions through Oral argument (opposed by Defendants in each case) could
have affected the opinions by the lower courts and prevented the appearance in this Supreme
Court.

LIST OF PARTIES
[ X] All parties appear in the caption of the case on the cover page.
ATTORNEYS TO:
TEXAS SOUTHMOST COLLEGE; LISSA FRAUSTO; MIKE SHANNON

[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follow

RELATED CASES
DR. LILY TECERO vs TEXAS SOUTHMOST COLLEGE, BROWNSVILLE, TEXAS
(IN THE US. FEDERAL COURT)

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION
7

INDEX TO APPENDICES

APPENDIX A

Opinions of the United States Court of Appeals, 5th Circuit

APPENDIX B

Opinions of the US. Southern District Court, Brownsville

APPENDIX C

Briefs submitted by Plaintiff to the US Court of Appeals, 5th Circuit

APPENDIX D

Exhibits to the briefs in APPENDIX C

APPENDIX E

Complaints to this case

APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

STATUTES AND RULES

OTHER

The Petitioner’s filing status is indicated as “Pro se” with no legal background and only
trying to follow the rules and guidelines of this Court to provide the necessary facts to the
best of his ability in this case. As such, the Petitioner is not capable of providing the
necessaiy legal citations applicable in this case.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
A

The opinion of the United States court of appeals appears at Appendix
the petition and is
Social media under Plaintiffs name ; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
Texas Southmost College campus
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

®__ to
; or,

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix __
to die petition and is
[ ] reported at
I ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appears at Appendix

; or,

court
to the petition and is

[ ] reported at __
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

; or,

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was November 6, 2020__________ _

[ ] No petition for rehearing was timely filed in my case.
**Plaintiff without legal background did not know whether petition was required or
necessary
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
_______
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _______
(date) on _______________
in Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1)
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
_______ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ____
(date) on
(date) in
Application No. ___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
2.

(date)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Appellant has no legal background and is incapable of providing Legal
citations, Authorities, Statutes, Rules, United States guidelines manual, and Miscellaneous.
The information provided by Appellant is based on facts as the incidents occurred and can
be crossed examined for authenticity rather than fiction and fabrications after two to three
years of filing the law suit by Defendants. Evidence show that Defendants have consistently
filed motions against cross examination of the information they have filed.

3.

STATEMENT OF THE CASE
The Federal Government descriptions of the “Race and Color Description in the workplace”
states as follows:
“Workplace discrimination can extend beyond hiring, firing, or limiting wages and opportunities
for advancement. It also occurs when other employees or even employer ridicule or make fun of
an employee because of that employee’s race or treat the employee with obvious anger or
hostility. This is harassment, and workplace harassment is against the law. Employers are legally
responsible for the behavior of their other workers in this situation”
Defendants who were in positions to have known the criteria indicated above, blatantly, defied
these criteria including the Department of Labor, the Accrediting Agency (Southern Association
of Colleges and Schools Commission on Colleges, SACSCOC) guidelines.
In retrospect, this is a classic case of racial discrimination. As detailed in APPENDICES C, D
and E, this case was premeditated and orchestrated by Defendant, Lissa Frausto (Director of
Human Resources) and abated by Defendant, Mike Shannon (Interim President) in the name of
Texas Southmost college, Brownsville, Texas. Defendants’ racial bias resulted in job
harassment, hostility and culminated in retaliation of wrongful Employment termination of
Plaintiff.
Defendant, Lissa Frausto accompanied by armed security guards approached Plaintiff with a
letter of termination she claimed was from Defendant, Mike Shannon in late February 2017.
Lissa Frausto decided to read the letter to Plaintiff in the presence of the security guards. Plaintiff
requested copies of the indicated complaints from Lissa Frausto prior to signing for the letter of
termination. Defendant, Lissa Frausto did not have any document for Plaintiff, who refused to
sign for the letter in light of the fact that Plaintiff had not seen or spoken to Mike Shannon in
more than four months.
Plaintiff tried several times to resolve this case with Defendants but Defendants refused to cooperate and
Plaintiff ultimately informed Defendants that he was reporting the case to the EEOC. In May 2018, the
EEOC specifically requested “internal investigative and grievance reports”; “treatment of similar
employee” from Defendants and their response in each case was “not applicable”, which depicts that they
did not make up (fabricate) any at that time. As soon as Defendants hired a new attorney because their
attorney then suggested settlement with Plaintiff, they started making up allegations and “bogus”
investigations in 2019 to cover up their Racial discrimination and to justify termination. Plaintiff saw the
so-called series of allegations and investigations by Defendants for the first time on November 2019.
Plaintiff immediately pointed this to the District court but no response. The District court, instead went on
to render opinion based on these unauthenticated documents, information and strictly on “Defendants’
summary judgement”. Plaintiff reemphasized this to the US Court of Appeals, 5th Circuit as shown in the
briefs (APPENDICES C and D). The US Court of Appeals, 5th Circuit ignored Plaintiffs pleas to address
this issue and affirmed the District Court opinions. Most importantly, as unfair as the opinions by the US
Court of Appeals were, the Court injected some damaging allegations in their opinions that Plaintiff did
not see in the Defendants’ reports and the opinions of the District Court sent that were sent to Plaintiff.
(APPENDICES A and B).
4.

REASONS FOR GRANTING THE PETITION
This case is a matter of life or death of Plaintiff. Every facet of Plaintiff s life has been destroyed by
Defendants actions and publication of the Lower Courts opinions. Plaintiff has no one and nowhere to
turn to except the Highest Court in this country for justice. Plaintiff knows he is just one individual and
there are countless individuals out there faced with similar issue but have either lost faith in the judiciary
system in seeking justice or unable to afford legal representation just like me.
As immigrant through education and experience, I know most racial biases and hate are based
on ignorance. Defendants were blinded by racial hate and did not take the time to know me in
terms of my knowledge, skills, abilities, attitudes and experience in terms of the job I was hired.
Defendants did not care to know my likes and dislikes but out of ignorance meticulously planned
and lied under oath to destroy Plaintiffs as documented. Defendant, Lissa Frausto. Director to
Human Resources as an EEOC representative at the time did not only practice Racism but
condoned and defended racial discrimination of a black veteran cited in details in documents in
the appendices.
“The truth does not change”. If an unbiased and uninfluenced body like the Supreme Court looks at this
case carefully and the supporting documents by both sides, there are insurmountable discrepancies,
inconsistencies and changes in documents and information by Defendants as the case goes on. Evidence
will show that Plaintiff was more qualified and experienced in his position compared to other Deans and
his predecessors except the color of his skin. Despite constantly being undermined and harassed by
Defendant, Lissa Frausto (not Plaintiffs supervisor), there is no shred of evidence that he was
incompetent. This was in contrast with the other two Deans (at the time) whose levels of competence
were constantly being questioned by their subordinates. Interestingly, one of these Deans (Mr. Donald
Crouse and white) was reassigned to a higher position after series of complaints by his subordinates. It is
veiy evident that PLAINTIFF was targeted and treated differently compared to other administrators by
DEFENDANTS. This is chronicled in APPENDIX E document. As evidenced, Defendants initiated
discrimination against Plaintiff by limiting Plaintiffs wages before he started working. Defendants
provided documents to the EEOC to confirm this. Dr. Marti Flores (Hispanic) who held the exact position
as Plaintiff (even with more years of experience and better credentials for the particular position) was
knowingly offered $18,000.00 less than what Dr. Lily Tecero (terminated soon after final interview and
hiring Plaintiff) offered Plaintiff. Plaintiff did not know at the time that Defendant’s intention was to
discourage Plaintiff from taking the job as soon as Defendant, Lissa Frausto discussed Plaintiffs race.
The same Dr. Marti Flores (Hispanic) was terminated by Mike Shannon (claimed that the Board of
Trustees asked him to) and when she threatened to sue, Defendants immediately decided to offer her
another position at the same institution. Dr. Lily Tecero (indicated under other Cases) was terminated by
the same institution. Without giving Defendants any opportunity to make up or fabricate reasons or
claims, Dr. Tecero filed a law suit and won. Dr. Tecero won her case against Defendants because she had
the connections and funds to retain capable legal representation immediately and did not have to go
through the lengthy process of the EEOC. After the verdict of Dr. Tecoro’s case, she indicated and I
quote “This is not about money but to send a message to TSC that they cannot terminate people’s
employment discriminately”. Unfortunately, Defendants did not get this message but continue with the
same practices and policies.
A brief indication of policies and practices by Defendants as indicated are reasons why this petition
should be granted to stop these policies and practices.
Furthermore, Defendants collaborating with the District Court in Brownsville will file motion against
granting this petition. This is also a pattern (indicated below) and must be stopped.
When the made-up allegations by Defendants against Plaintiff surfaced, Defendants filed motions against
cross examining Defendants by Plaintiff, (documented)
5.

When Plaintiff requested an extension to respond Defendants summary reports, Defendants filed motion
against granting the extension, (documented)
When Plaintiff proceeded to the Court of Appeals, 5th Circuit, Defendants and the District Court filed
motions against it. (documented)
When Plaintiff requested several times for Oral arguments in the Court of Appeals, 5th Circuit,
Defendants filed motions against these requests, (documented)
In light of the fact that Discoveries were not conducted (supposedly because Plaintiffs status as already
indicated); Plaintiff was not given any opportunity to respond; and consistent attempts by Defendants to
avoid the truth coming out of Oral argument are also main reasons for granting this petition.
When Plaintiff questioned and requested according to the Department of Labor, the EEOC and
Accrediting agency guidelines: a. who filed the complaints, b. when the complaints were filed, c. was
the defendant in each complaint notified and his/her response, and. d. detail investigation and
conclusion by neutral grievance committee.
None of these questions was answered by Defendants or the Court, rather after two years, Defendants
provided tons of documents claimed to be investigations including people that Plaintiff has never
interacted with while working for Defendants. Defendants also included four more made up
(fabricated complaints) they claimed were sent by other employees to Plaintiffs immediate supervisor,
Mike Shannon. In retrospect, Defendant, Lissa Frausto wanted the Court to believe that she was not
solely responsible for these actions but there were other people involved but Defendants supporting
documents prove contrary. Failure of the District court to recognize these inconsistencies and changes by
Defendants which could have been emphasized and clarify through Oral arguments resulted in rendering
erroneous opinions. The District Court not providing the Court of Appeals, 5th Circuit with the accurate
information and constantly making arguments on behalf of Defendants resulted in their erroneous
opinions too. Most importantly, if Defendants do not have anything to hide or is presenting authentic
information and documents to the Courts, why are they resistant to Oral arguments to emphasize and
clarify information provided or not provided because of the Courts limitations? This is a reason why the
Supreme Court should grant this petition.
For the sake of Justice, Plaintiff hopes and prays that the Supreme Court grants this petition with the hope
of correcting the errors (as outlined) made by the Lower Courts as well as taking into consideration
Plaintiffs financial status and lack of legal background and representation. This body, the Supreme Court
is highly revered by Plaintiffjust as every other citizen of this great country. Plaintiff hopes and prays that
this body which subscribes to equal justice for every citizen will grant this petition not only for Plaintiffs
sake but also giving hope to a lot of those who are powerless, helpless and have faced discrimination and
injustice.

6.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
IMEHU. AFFIAH

Date:

l $j XP9-!

7.

